               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Survey of Postmasters’ Paperwork
       and Reporting Requirements

         Management Advisory Report




                                              May 25, 2012

DR-MA-12-001
                                                                          May 25, 2012

                                             Survey of Postmasters’ Paperwork and
                                                           Reporting Requirements

                                                       Report Number DR-MA-12-001




IMPACT ON:
Delivery and Post Office™ Operations         WHAT THE OIG RECOMMENDED:
                                             The U.S. Postal Service Office of
WHY THE OIG DID THE AUDIT:                   Inspector General (OIG) recommended
There are approximately 22,000               the vice president, Delivery and Post
postmasters managing over 200,000            Office Operations, evaluate postmaster
carriers in locations nationwide. Our        required reports to assess duplication
objective was to evaluate the reporting      and determine whether reports can be
requirements of postmasters who              combined or modified as necessary to
manage daily operations.                     enhance office operations. We also
                                             recommended the vice president review
WHAT THE OIG FOUND:                          and reduce additional reporting
Overall, postmasters’ survey responses       requirements at post offices.
indicated reporting requirements were
appropriate. Sixty-eight percent of          WHAT MANAGEMENT SAID:
postmasters surveyed indicated the           Management stated they agreed with
report quantities were sufficient and        the concept, however, they implemented
postmasters were generally satisfied         actions when the reporting problem
with the report data reliability, quality,   surfaced by issuing a directive to field
and usefulness; and time was sufficient      managers to eliminate manual reports
to prepare and review reports. However,      and checklists where data was already
32 percent indicated some reports were       available. Management also stated they
excessive and contained redundant            will continue to assess area and district
information. Some postmasters also           officials’ additional reporting
stated that they never used certain          requirements to reduce duplicative
reports and indicated that headquarters,     requests.
area, and district officials required them
to prepare additional reports with           AUDITORS’ COMMENTS:
information already contained in the         The OIG considers management’s
daily reports. Excessive reporting           comments responsive to the
requirements reduce the time available       recommendations and corrective actions
to manage daily operations, such as          should resolve the issues in the report.
time that could be spent interacting with
carriers and identifying opportunities to
improve customer service.                    Link to review the entire report
May 25, 2012

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Management Advisory – Survey of Postmasters’
                           Paperwork and Reporting Requirements
                           (Report Number DR-MA-12-001)

This report presents the results of our review of postmasters’ paperwork and reporting
requirements (Project Number 11XG027DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director,
Delivery, or me at 703-248-2100.

Attachments

cc: Elizabeth A. Schaefer
     Philip F. Knoll
    James J. Boldt
    Corporate Audit and Response Management
Survey of Postmasters’ Paperwork and Reporting                                                             DR-MA-12-001
 Requirements



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Postmasters’ Paperwork Survey Results ........................................................................ 2

Report Quantity and Usage ............................................................................................. 3

Report Reliability and Quality .......................................................................................... 4

Report for Management Decisions .................................................................................. 5

Report Relevance, Preparation, and Review Time ......................................................... 6

Additional Reporting Concerns ........................................................................................ 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 8

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Management’s Comments ........................................................................ 13
Survey of Postmasters’ Paperwork and Reporting                                                 DR-MA-12-001
 Requirements



Introduction

This report presents the results of our review of postmasters’ paperwork and reporting
requirements (Project Number 11XG027DR000). The objective of this self-initiated
review was to evaluate the reporting requirements of postmasters who manage daily
operations. See Appendix A for additional information about this review.

Conclusion

Overall, postmasters’ survey responses indicated that reporting requirements were
appropriate for their Post Office™ level. Sixty-eight percent of postmasters surveyed in
4001 randomly selected level 11 through 24 post offices2 indicated daily reports varied
and the quantities were sufficient for the Post Office level. Furthermore, postmasters at
these offices were generally satisfied with the data reliability, quality, and usefulness to
manage daily operations. Generally, time was also sufficient to prepare and review
reports; however, 32 percent of the postmasters indicated that there were too many
reports. Specifically, postmasters indicated:

   Daily reports were excessive and some contained redundant information.

   They never used some reports because the information was not applicable to their
    office.

   Headquarters, area, and districts officials required them to provide additional reports,
    participate in teleconferences, and prepare emails that contained duplicate or similar
    information already in the daily reports.

Excessive reporting requirements reduce the time available to manage daily operations,
such as time that could be spent interacting with carriers and identifying opportunities to
improve customer service.




1
  Our survey response rate was 46 percent (185 of 400). Additionally, all questions were not answered because the
question was not applicable to some post offices.
2
  Post offices are categorized by numerical level based on annual revenue and mail volume.
                                                          1
Survey of Postmasters’ Paperwork and Reporting                                                  DR-MA-12-001
 Requirements


Postmasters’ Paperwork Survey Results

We randomly selected 400 postmasters, levels 11 through 24 to participate in the U.S.
Postal Service Office of Inspector General (OIG) survey.3 The 185 responses included
postmasters in all seven areas (see Figure 1).
                          Figure 1. Total Number of Responses by Area




Source: OIG Survey Analysis Results.

Daily reports prepared by the 185 respondents varied based on the Post Office level.4
Respondents indicated they did not use all 14 daily reports included in the OIG survey
(see Figure 2).

                           Figure 2. Total Number of Daily Report Users




      Source: OIG Survey Analysis Results.



3
  The OIG survey included 14 of the most commonly used standardized reports required to manage daily operations.
The survey contained questions regarding the quantity, usage, data reliability, quality, and usefulness of the required
reports, as well as the time needed to prepare and review reports. The survey results reflect the total number of
responses for all 14 reports included in the document.
4
  The majority of the respondents (122 of 185) managed post offices with total routes of 10 or less. The remaining
63 respondents managed post offices with up to 104 routes.


                                                           2
Survey of Postmasters’ Paperwork and Reporting                            DR-MA-12-001
 Requirements


Report Quantity and Usage

Sixty-eight percent of postmasters surveyed (126 of 185) indicated that daily reports
varied and the quantities were sufficient for the Post Office level; however, 32 percent
(59 of 185) stated that there were too many reports. Some postmasters indicated that
reports were excessive because they contained duplicate information. Additionally, no
postmasters indicated there were too few reports (see Figure 3).

                 Figure 3. Postmasters’ Responses on Report Quantity
                                              0
                                             0%

                                        59
                                       32%
                                                                    Sufficient
                                                                    Too Many
                                                      126
                                                      68%           Too Few




      Source: OIG Survey Analysis Results.

The survey results indicated that reports were used daily to manage operations.
Specifically, 52 percent of the survey responses (1,140 of 2,207) indicated they use the
majority of the daily reports listed in the OIG survey. The remaining 48 percent of the
responses (1,067 of 2,207) indicate that report usage varied (see Figure 4).

                  Figure 4. Postmasters’ Responses on Report Usage


                                 599
                                 27%
                                                            1,140         Daily
                                                             52%          Weekly
                    173
                    8%                                                    Monthly
                                 295                                      Never
                                 13%




          Source: OIG Survey Analysis Results.




                                                  3
Survey of Postmasters’ Paperwork and Reporting                                            DR-MA-12-001
 Requirements


Some respondents indicated never using some reports because they use their
operational knowledge of delivery to make daily decisions and that information was
often duplicated in other reports. Also, reporting frequencies varied by office level and
type of service, delivery, or retail because some reports were not applicable.

Report Reliability and Quality

Delivery operations reports provide information required for daily workload
management, unit performance reviews, planning, scheduling, and route management.
Ninety-seven percent of survey responses (1,526 of 1,578) showed that the data in daily
reports are generally accurate. Only 3 percent of the responses (52 of 1,578) indicated
that some reports were never accurate (see Figure 5).

              Figure 5. Postmasters’ Responses on Report Data Reliability
                                              52
                                              3%
                                      431
                                      27%
                                                                                        Highly
                                                           1,095                        Usually
                                                            70%
                                                                                        Never




              Source: OIG Survey Analysis Results.

Fifty-seven percent of the survey responses (870 of 1,521) indicated the data quality
was excellent and only 7 percent of the responses (101 of 1,521) show that some
reports had poor quality. Some postmasters stated that consolidating certain reports
and improving data entry would improve the quality of these reports. For example, to
reduce reporting requirements, some postmasters suggested combining the Unit Daily
Performance and the Workload Status Reports5 (see Figure 6).




5
 The OIG issued a prior report in March 2009, recommending reducing Delivery Operations Information System
(DOIS) reports to aid supervisors in managing carrier performance. Management stated that there are ongoing
discussions concerning potential changes; however, there are no fiscal year 2012 funds to enhance DOIS.


                                                       4
Survey of Postmasters’ Paperwork and Reporting                                    DR-MA-12-001
 Requirements


                      Figure 6. Postmasters’ Responses on Report Quality
                                    101
                                    7%


                            550
                            36%                                                Excellent
                                                              870
                                                              57%              Good
                                                                               Poor




               Source: OIG Survey Analysis Results.

Report for Management Decisions

Postmasters are responsible for maintaining their units at a high degree of efficiency
and following U.S. Postal Service standards.6 To maintain efficiency, operational data is
critical when making management decisions. Fifty-eight percent of survey responses
(960 of 1,666) indicated that postmasters generally use the reports to make
management decisions. However, 19 percent of the responses (323 of 1,666) indicated
that some reports are never used to facilitate management decisions (see Figure 7).
Examples of reports which were not used to facilitate management decisions include
the Sales and Service Retail Diagnostics, Managed Service Point, and Unit Feedback
reports.

            Figure 7. Postmasters’ Responses on Reports for Management Decisions


                                             323
                                             19%

                                                                                  Always
                                383                              960
                                23%                              58%              Sometimes
                                                                                  Never




                  Source: OIG Survey Analysis Results.




6
    Postal Service Delivery Standard Operating Procedures, dated March 2005.


                                                         5
Survey of Postmasters’ Paperwork and Reporting                        DR-MA-12-001
 Requirements


Report Relevance, Preparation, and Review Time

Seventy-five percent of surveyed postmasters (139 of 185) indicated the reports
provided relevant data to manage today’s modern delivery environment. However,
21 percent (38 of the 185) indicated the reports were not relevant to manage
operations. Some postmasters stated that certain reports reflect a snapshot of
operations and the data did not include situational changes (see Figure 8).

                Figure 8. Postmasters’ Responses on Report Relevance

                                            8
                               38          4%
                              21%
                                                            Yes
                                                            No
                                                 139        No Response
                                                 75%




          Source: OIG Survey Analysis Results.

Reviewing and preparing operational reports are essential for managing modern
delivery units’ daily operations. Postmasters generally indicated that daily report
preparation and review time were sufficient. Specifically, 58 percent of postmasters
(107 of 185) used more than 1 hour to prepare reports, while 54 percent (100 of 185)
indicated using less than 1 hour to review reports (see Figures 9 and 10).

     Figure 9. Postmasters’ Responses on Daily Time Used to Prepare Reports
                                  4     2
                           12          1%
                           7%    2%

                                                            0 Minutes – 1 Hour
                         26                       78
                        14%                      42%          1 – 2 Hours
                                                              2 – 3 Hours
                                                              3 – 4 Hours
                               63
                              34%                             4 – 5 Hours
                                                              5 Hours or More




        Source: OIG Survey Analysis Results.




                                                   6
Survey of Postmasters’ Paperwork and Reporting                            DR-MA-12-001
 Requirements


    Figure 10. Postmasters’ Responses on Daily Time Used to Review Reports
                          12 5 1                  1
                          6% 3% .5%              .5%

                                                                 0 Minutes – 1 Hour
                                                                  1 – 2 Hours
                     66                             100
                                                                  2 – 3 Hours
                    36%                             54%
                                                                  3 – 4 Hours
                                                                  4 – 5 Hours
                                                                  5 Hours or More



       Source: OIG Survey Analysis Results.

The time to prepare and review reports varied based on office level, total routes
managed, and type of delivery service. Generally, Post Office levels 11 through 18 used
less time to prepare and review reports than Post Office levels 20 through 24.
Additionally, some offices with as many as 104 routes use 5 hours or more to prepare
and review reports.

Additional Reporting Concerns

Thirty-one percent (57 of 185) of postmasters surveyed indicated that headquarters,
area, and district officials required them to provide additional reports and participate in
teleconferences. They were also required to prepare emails that contained duplicate or
similar information contained in the 14 daily reports listed on page 2 of this report.
Excessive reporting could impact their daily office supervision. The remaining
69 percent (128 of 185) did not provide a response (see Figure 11).

      Figure 11. Postmasters’ Responses on Additional Reports or Checklists
                                           6               10
                                          3%               6%

                                                        41             Headquarters
                                                       22%
                                                                       Area
                                    128                                District
                                    69%
                                                                       No Response




             Source: OIG Survey Analysis Results.




                                                       7
Survey of Postmasters’ Paperwork and Reporting                           DR-MA-12-001
 Requirements


Additional reports postmasters completed include:

   Automated Vehicle Utilization System.
   Electronic Uncoded Address Resolution Service.
   Backdoor Log.
   Postal Automated Redirection System Log.
   Post Office Box Accuracy Log.
   Express Mail.
   Mail Volume.
   Scan Point Management System.
   Undeliverable Bulk Business Mail.
   Supervisors Daily Checklist.
   Random Vehicle Inspection.
   Bait Money Order Log.
   Collection Box Scan Log.
   Dispatch Barcode Report.

Excessive reporting requirements reduce the time available to manage daily operations,
such as time that could be spent interacting with carriers and identifying opportunities to
improve customer service.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Evaluate postmaster required reports to assess duplicate information and determine
   whether reports can be combined or modified to enhance office operations.

2. Continue to assess additional reporting request made by area and district officials to
   reduce duplicative request for information.

Management’s Comments

Management generally agreed with our findings and recommendations.

Regarding recommendation 1, management stated they agreed with the concept,
however, they implemented the corrective actions in June 2010 when the reporting
problem surfaced. They issued a directive to field managers to eliminate manual reports
and checklists where data was already available. They also developed the AM-PM Web
report for local reporting requirements, which is available to all areas and districts.

For recommendation 2, management stated headquarters and Delivery Operations
management will continue to respond to complaints from the Management Associations
and field managers regarding area and district level requests for duplicate information.




                                                 8
Survey of Postmasters’ Paperwork and Reporting                          DR-MA-12-001
 Requirements


Management also stated the survey and audit conclusion seems to suggest the OIG
audited mostly reports received by Post Office personnel and not manual and redundant
daily reports prepared. They stated the complaint from the Management Associations
concerned postmasters, managers, and supervisors having to report out on data that
was already in a database and electronically available. They stated the OIG concluded
that some reports were not used because they were not applicable; however it is
doubtful that postmasters would spend time on reports that were not applicable to them.
Management also stated the mixture of reports listed in the survey and the reports listed
as additional reports seem to indicate that the OIG did not differentiate between valid
operational requirements and reports. In addition, they viewed the results of the survey
differently than the OIG. They concluded that, based on the activities already underway
to resolve the issues and the fact that 54 percent of the postmasters did not respond to
the survey, the redundant and manual reports are no longer an issue. See Appendix B
for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendations and corrective actions should resolve the issues identified in the
report. Major reporting issues surfaced in 2010 prior to the audit and management
directed area managers to eliminate the use of manual logs and checklists in post
offices, standardize the reporting information submitted to area and headquarters
officials, and use the AM-PM Web verification process.

Regarding the reports included in the survey, OIG identified reports that management
indicated they used daily to manage operations. The survey was the vehicle used to
capture redundant reports, identify the method of reporting, and assess how the reports
were used. We also provided respondents the opportunity to list any additional reports
in the survey and additional issues regarding reports used for daily operations. In
addition, the 54 percent of the postmasters that did not respond to the survey does not
necessarily correlate to reducing redundancy and manual reporting.

Our conclusions are reflective of the survey results. We recognized in the report that
corrective actions were taken in 2010 and agree the survey results indicate
management has made significant progress in addressing these issues. However,
based on the survey results, we believe management needs to periodically evaluate
reporting requirements and continue to respond to complaints involving duplicate
information.




                                                 9
Survey of Postmasters’ Paperwork and Reporting                                                  DR-MA-12-001
 Requirements


                                    Appendix A: Additional Information

Background

Postmasters are responsible for maintaining their offices7 at a high degree of efficiency
and following Postal Service standards. There are approximately 22,000 postmasters
managing over 200,000 carriers in locations nationwide. The Postal Service designed
systems in delivery and retail to improve unit management. The DOIS reports provide
information on daily workload management, performance, planning and scheduling, and
route management. To fulfill their responsibilities, postmasters monitor various reports.8

Postmasters and other delivery managers review daily performance reports to evaluate
how effective delivery supervisors manage the unit’s daily activities. This information
also allows managers and postmasters to conduct quality assessments to evaluate
supervisors’ ability to balance workload among available resources. These
assessments are generally conducted in delivery units where managers need to
encourage more effective use of DOIS.

In January 2010, the National League of Postmasters issued a letter to the Oversight
and Government Reform Committee of the U.S. House of Representatives expressing
concerns regarding nonproductive, repetitious reports and paperwork requirements. In
June 2010, the vice president, Delivery and Post Office Operations, required area
managers of Operations to eliminate the use of manual logs and checklists in post
offices and standardize the reporting information submitted to area and headquarters
officials. Further, postmasters were required to use the AM-PM Web verification
process.9

Objective, Scope, and Methodology

We conducted this review from February 2011 through May 2012 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. Our objective was to evaluate the reporting requirements of
postmasters who manage daily operations. To accomplish our objective we:

      Reviewed applicable documentation, policies, and procedures, such as
       Delivery Standard Operating Procedures, Redundant Manual Logs Reduction
       memorandum, Delivery Daily AM Supervisor Checklist, and the Delivery
       Supervisor Roadmap to Success.

      Interviewed appropriate delivery operations officials at headquarters, areas, and
       districts to obtain information on postmasters daily reporting requirements.

7
  Postmasters manage clerks and carriers in offices with routes ranging from fewer than 10 employees to over 100.
8
  Additional reports monitored by postmasters include daily retail window operations, employee proficiency,
performance, and daily financial reports. Reports are generated from the Enterprise Data Warehouse, Retail Data
Mart, Point-of-Service, ONE WOS, and WOS Daily Scheduler.
9
  This is a web-based tool that electronically records and communicates daily conditions within the local delivery unit
and standardizes the daily information submitted to area and headquarters officials.


                                                           10
Survey of Postmasters’ Paperwork and Reporting                           DR-MA-12-001
 Requirements



    Developed and issued a survey to 400 randomly selected postmasters at post
     offices levels 11 through 24 to assess the quantity and effectiveness of reports
     prepared and reviewed to manage daily Post Office operations.

    Conducted site visits to test the survey in the Philadelphia Metro, South Jersey,
     and Central Illinois Districts.

We reviewed, analyzed, and summarized the survey results; however, we did not test
the usefulness or accuracy of the reporting requirements. We discussed our
observations and conclusions with management on March 21, 2012, and with the
National League of Postmasters and National Association of Postmasters on April 9,
2012. We included their comments where appropriate.

We assessed the reliability of the survey data by reviewing and analyzing the survey
results. We determined that the data were sufficiently reliable for the purposes of this
report.




                                                 11
     Survey of Postmasters’ Paperwork and Reporting                                 DR-MA-12-001
      Requirements


     Prior Audit Coverage

                                            Final
                                           Report           Monetary
 Report Title      Report Number             Date            Impact             Report Results
Management         DR-MA-09-001           3/26/2009        $1,040,235   Opportunities exist for delivery
Advisory –                                                              unit management to
Management of                                                           effectively use available
City Letter                                                             controls, such as performing
Carriers’ Street                                                        street observations and
Performance                                                             reviewing operational reports.
                                                                        We recommended
                                                                        management reduce the
                                                                        number of required reports,
                                                                        modify DOIS, reinforce
                                                                        importance of performance
                                                                        discussions, consider
                                                                        converting city carriers to
                                                                        evaluated routes and deploy
                                                                        additional Global Positioning
                                                                        Systems. Management
                                                                        disagreed with
                                                                        recommendations 1 and 2.
                                                                        However, management stated
                                                                        there were ongoing
                                                                        discussions for changes to
                                                                        DOIS because of declining
                                                                        mail volume and changing
                                                                        operational needs.
                                                                        Management agreed with
                                                                        recommendations 3 and 4 and
                                                                        partially agreed with
                                                                        recommendation 5.




                                                      12
Survey of Postmasters’ Paperwork and Reporting                DR-MA-12-001
 Requirements


                          Appendix B: Management’s Comments




                                                 13
Survey of Postmasters’ Paperwork and Reporting        DR-MA-12-001
 Requirements




                                                 14
Survey of Postmasters’ Paperwork and Reporting        DR-MA-12-001
 Requirements




                                                 15
Survey of Postmasters’ Paperwork and Reporting        DR-MA-12-001
 Requirements




                                                 16
